APPENDIX A

US District Court of Appeals Order

Case: 19-12680

Date Filed: 03/31/2020

Page: 1 of 15

[DO NOT PUBLISH]

■ ■j

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-12680
Non-Argument Calendar

D.C. Docket No. 8:18-cv-02642-WFJ-AEP

ROBERT KELVIN LINDBLOOM,
Plaintiff-Appellant,
versus
MANATEE COUNTY,
a political Subdivision of the State
of Florida, TANYA SHAW, et al.,
Defendants-Appel lees.

Appeal from the United States District Court
for the Middle District of Florida

A

(March 31, 2020)
Before WILLIAM PRYOR, JILL PRYOR, and ANDERSON, Circuit Judges.
c

PER CURIAM:

Case: 19-12680

Date Filed: 03/31/2020

Page: 2 of 15

Robert Lindbloom, proceeding pro se on appeal, appeals the district court’s
dismissal of his pro se complaint under 42 U.S.C. § 1983, which challenged the
constitutionality of Florida’s Local Government Code Enforcement Boards Act,
Fla. Stat. §§ 162.01-13, and alleged that his due process and civil rights were
violated at a Manatee County, Florida, Code Enforcement Division hearing.
Lindbloom argues that the district court erred in dismissing his complaint for
failure to state a claim because the code enforcement hearing violated his due
process rights and the individual defendants were not entitled to qualified
immunity. Lindbloom also argues that the district court erred in dismissing his
complaint for failure to state a claim because he successfully challenged the
constitutionality of Florida’s Local Government Code Enforcement Boards Act.
We address each in turn and affirm the district court’s dismissal of Lindbloom’s
complaint.
I. BACKGROUND
Because we solely write for the benefit of the parties, we provide only as
much detail as is necessary for us to reach our decision. Lindbloom, a property
owner in Manatee County, Florida, received two notices of violation on July 31,
2018, from the county government for having large amounts of trash and debris in
his yard and for having an unsound roof. The notices, which were sent to
Lindbloom by certified mail, made clear that Lindbloom needed to clean the entire
2
,v

Case: 19-12680

Date Filed: 03/31/2020

Page: 3 of 15

property to remove the trash and debris and make his roof weatherproof and free
from defects by August 10, 2018. Subsequent re-inspections revealed that the
violations remained uncorrected after the deadline and the county issued notices of
hearing to Lindbloom by certified mail and email.
The hearing took place on September 26, 2018, with Lindbloom in
attendance, and was transcribed. Tanya Shaw, an officer with the county’s Code
Enforcement Division, outlined the alleged violations and presented photographs
of Lindbloom’s house. Lindbloom had an opportunity to respond, and requested a
“VGA cable” to plug his computer into. Katharine Zamboni, an Assistant Manatee
County Attorney, informed Lindbloom that he needed to provide them with a copy
of anything he wished to present. She asked if that would be a problem, and
Lindbloom said that it would not be. He then said that he wanted to “make a
fourth request for a hearing aid,” which he said he assumed would be provided by
the Americans with Disabilities Act, and said that he could not hear any of the
hearing.
Lindbloom argued that none of the photographs “represent current
conditions.” When Shaw disagreed, he replied that he would “bring her back on
perjury charges because there’s been a lot of stuff done here.” He then advised the
magistrate judge that he had “major surgery” and was “here against doctor’s
orders.” He was advised that, even if the photographs presented by Shaw did not
3

Case: 19-12680

Date Filed: 03/31/2020

Page: 4 of 15

represent current conditions, he would have about a month to make the necessary
changes, and that fines would only start accruing at that point. Lindbloom
conceded that debris remained on his lawn and that he was “in the middle of trying
to fix some storm damage.” He further objected to the photographs on the ground
that they were “taken with a zoom, which means she entered through my property
electronically and took these pictures.” He questioned what a structure was, and
whether his roof was a part of his house’s structure, which the magistrate advised
him it was.
The magistrate informed Lindbloom that he found that the house was not in
compliance and that Shaw, or another code enforcement officer, would conduct re­
inspections to verify compliance. He gave Lindbloom until October 19, 2018, to
correct the noncompliance; if it was not corrected by that point, a fine of $50 per
day would be assessed for each violation, with a $20,000 cap. Lindbloom
indicated that he would appeal the decision and that he “could not understand the
first part of’ the hearing. Zamboni advised him that he said that he “wished to go
forward” with the hearing, and the magistrate told him that while he may not have
been able to hear, the order adequately set out the violation. Lindbloom did not
bring his property into compliance by the deadline and was assessed daily fees
until February 19, 2019, at which point a $4,778.50 fee, along with $28.50 in
recording fees, was imposed as a lien against his property.
4

Case: 19-12680

Date Filed: 03/31/2020

Page: 5 of 15

Lindbloom did not appeal the magistrate’s order, instead filing a pro se
complaint in the instant case on October 29, 2018. He filed a second amended
complaint on April 25, 2019, which serves as the operative complaint in this case.
He alleged that his First and Fourth Amendment rights, his due process rights, and
the Americans with Disabilities Act were violated, and that Manatee County
Ordinance 15-10, adopted pursuant to Florida Statutes §§ 162.01-13, were
unconstitutional. In support of these claims, Lindbloom asserted a litany of
arguments, which we do not endeavor to voluminously or exclusively recount.
Manatee County moved to dismiss the second amended complaint for failure
to state a claim. Specifically, it argued that his procedural due process claim was
unavailable because there was an adequate remedy under state law—namely, he
could appeal the determination to the state circuit court. As to the substantive due
process claim, it argued that Lindbloom’s constitutional rights were not violated.
It also argued that the individual defendants were entitled to qualified immunity
and that Lindbloom’s claims under the Florida Constitution—excessive fines and a
violation of his right to privacy—were not sufficiently alleged because he made no
showing that the fine was disproportionate or that he had a legitimate expectation
of privacy in the description of the debris around his property. The district court
granted the motion to dismiss with prejudice. Lindbloom timely appealed to us.

5

Case: 19-12680

Date Filed: 03/31/2020

Page: 6 of 15

II. DISCUSSION
A.

Due Process Claims

We review de novo a district court’s dismissal of a complaint for failure to
state a claim. Bishop v. Ross Earle & Bonan, P.A., 817 F.3d 1268, 1270 (11th Cir.
2016). Federal Rule of Civil Procedure 8(a)(2) requires that a pleading contain “a
short and plain statement of the claim showing that the pleader is entitled to relief.”
Fed. R. Civ. P. 8(a)(2). The complaint is viewed in the light most favorable to the
plaintiff, and all the plaintiffs well pleaded facts are accepted as true. Am. United
Life Ins. Co. v. Martinez, 480 F.3d 1043, 1057 (11th Cir. 2007). Further, pro se
pleadings are held to a less strict standard than counseled pleadings and are
liberally construed. Alba v. Montford, 517 F.3d 1249, 1252 (11th Cir. 2008).
However, in order to survive a motion to dismiss, the plaintiffs complaint must
contain facts sufficient to support a plausible claim to relief. Ashcroft v. Iqbal, 556
U.S. 662, 679 (2009). The district court must accept the plaintiffs allegations as
true but is not required to accept his legal conclusions. Id. at 678. A threadbare
recital of the elements of a cause of action, supported by conclusory statements,
does not suffice. Id.
We note that we do not usually consider issues not raised in the district court
and raised for the first time in an appeal. Access Now, Inc. v. Sw. Airlines Co., 385
F.3d 1324, 1331 (11th Cir. 2004). And where a legal claim or argument that has
6

Case: 19-12680

Date Filed: 03/31/2020

Page: 7 of 15

not been briefed on appeal is deemed abandoned, and its merits will not be
addressed. Id. at 1330. While we construe briefs filed by pro se litigants liberally,
a litigant’s decision to represent themselves pro se does not excuse noncompliance
with procedural requirements. To that end, issues not briefed on appeal by a pro se
litigant are deemed abandoned. Timson v. Sampson, 518 F.3d 870, 874 (11th Cir.
2008). Further, issues must be raised plainly and prominently on appeal. See
Sapuppo v. Allstate Floridian Ins. Co., 739 F.3d 678, 680-81 (11th Cir. 2014).
Generally, issues raised in a conclusory manner, without citation to authorities and
the record, are deemed waived. See Fed. R. App. P. 28(a)(8); NLRB v. McClain of
Ga., Inc., 138 F.3d 1418, 1422 (11th Cir. 1998). Finally, we do not consider
arguments raised for the first time in a reply brief. Sappupo, 739 F.3d at 683.
To state a claim under 42 U.S.C. § 1983, a plaintiff must allege that a person
acting under color of state law committed an act that deprived him of some right
protected by the Constitution or laws of the United States. Qualified immunity
protects government officials from individual liability for discretionary actions
taken in the course of their duties. Alcocer v. Mills, 906 F.3d 944, 950-51 (11th
Cir. 2018). All except the plainly incompetent or an official who knowingly
violates federal law are protected from litigation under qualified immunity. Id. at
951. To show entitlement to qualified immunity, the official must first establish
that they acted within the scope of their discretionary authority. Id. Then the
7

Case: 19-12680

Date Filed: 03/31/2020

Page: 8 of 15

burden shifts to the plaintiff to show that qualified immunity is inappropriate. Id.
The plaintiff must show that the officer’s conduct violated a constitutionally
protected right and that the right was clearly established. Id. Each defendant is
entitled to an independent qualified-immunity analysis. Id.
The Fourteenth Amendment protects against deprivation by state action of a
constitutionally protected interest in “life, liberty, or property” without due process
of law. Maddox v. Stephens, 727 F.3d 1109, 1118 (11th Cir. 2013). “The Due
Process Clause provides two different kinds of constitutional protections:
procedural due process and substantive due process.” Id. A violation of either can
form the basis for a suit under section 1983. Id.
To prove his section 1983 substantive due process claim, a plaintiff must
establish that he has been deprived of a federal constitutionally protected interest
and that the deprivation was the result of an abuse of governmental power.
Greenbriar, Ltd. v. City ofAlabaster, 881 F.2d 1570, 1577 (11th Cir. 1989).
Deprivation of a property interest is unconstitutional if it is undertaken for an
improper motive and by means that are pretextual, arbitrary and capricious, and
without any rational basis. Id. To succeed on a section 1983 claim challenging the
denial of procedural due process, a plaintiff must demonstrate: (1) the deprivation
of a constitutionally protected liberty or property interest, (2) state action, and (3) a

8

Case: 19-12680

Date Filed: 03/31/2020

Page: 9 of 15

constitutionally inadequate process. Grayden v. Rhodes, 345 F.3d 1225, 1232
(11th Cir. 2003).
As a general rule, state-created property rights enjoy no substantive due
process protection because they are not fundamental rights protected by the Due
Process Clause. Hillerest Prop., LLP v. Pasco County, 915 F.3d 1292, 1297-98
(11th Cir. 2019); Kentner v. City ofSanibel, 750 F.3d 1274, 1279 (11th Cir. 2014).
We have recognized an exception to this general rule when rights are infringed by
a legislative, rather than an executive, act. Id. at 1279-80. Executive acts
characteristically apply to a limited number of people, often only one person, while
legislative acts apply to a larger portion, if not all, of society. Id. at 1280. There is
a strong presumption that a fine is not unconstitutionally excessive if it is within
the range of fines prescribed by the legislature. See United States v. Bajakajian,
524 U.S. 321,336 (1998).
A violation of procedural due process does not become complete unless and
until the state refuses to provide adequate due process. Club Madonna, Inc. v. City
ofMiami Beach, 924 F.3d 1370, 1378 (11th Cir. 2019). Generally, due process
requires notice and the opportunity to be heard. See Grayden, 345 F.3d at 1236.
An appeal of a final administrative order to the Florida State Circuit Court satisfies
due process because the circuit court has the power to remedy any procedural

9

Case: 19-12680

Date Filed: 03/31/2020

Page: 10 of 15

defects and cure due process violations. Club Madonna, 924 F.3d at 1379 (citing
McKinney v. Pate, 20 F.3d 1550, 1564 (11th Cir. 1994)).
Lindbloom’s specific argument is that Manatee County violated his due
process rights in two separate ways. First, it violated his substantive due process
rights by putting a lien on his property. Second, it violated his procedural due
process rights by providing him with an inadequate remedy. These arguments are
without merit. With respect to Lindbloom’s procedural due process claim, a
procedural due process claim does not accrue unless and until the state refuses
adequate due process. Club Madonna, id. at 1378. Lindbloom could have
appealed the final administrative order to the Florida State Circuit Court which has
the power to remedy any procedural defects and cure procedural due process
violations. Lindbloom failed to pursue that state court remedy, and therefore has
no procedural due process claim.
With respect to his substantive due process claim—even if we assume
arguendo that he is challenging a legislative act, not an executive act, with respect
to which under some circumstances “the substantive component of the Due Process
Clause ... protects ... from arbitrary and irrational governmental action,”
Kentner, 750 F.3d at 1278-80—Lindbloom has not pointed to irrational or
arbitrary governmental action.

10

Case: 19-12680

B.

Date Filed: 03/31/2020

Page: 11 of 15

Constitutionality of the Local Government Code Enforcement Boards
Act

We review the constitutionality of a challenged statute de novo. Harris v.
Mexican Specialty Foods, Inc., 564 F.3d 1301, 1308 (11th Cir. 2009). A facial
challenge asserts that a law always operates unconstitutionally and an as-applied
challenge asserts that a law is unconstitutional on the facts of the particular case or
to a particular party. Id. Due process is violated where a law forbids or requires an
act in terms so vague that a person of common intelligence must necessarily guess
at its meaning and differ in its application. Id. at 1310. Separation of powers
principles recognize boundaries between the three branches of government and that
one branch must not encroach on the central prerogatives of another. See Miller v.
French, 530 U.S. 327, 341 (2000).
Florida’s Local Government Code Enforcement Boards Act was created to
promote the health and safety of state citizens by creating administrative boards to
impose administrative fines and other noncriminal penalties to provide an effective
and inexpensive method of enforcing county and municipal codes and ordinances
where a pending or repeated violation persists. Fla. Stat. § 162.02. A special
magistrate has the same status as an enforcement board. Id. § 162.03(2).
Enforcement is initiated by a code inspector who notifies the violator and gives
him a reasonable time to comply, and if the violation continues, the code inspector
notifies the special magistrate and requests a hearing. Id. § 162.06(2). At the
11

Case: 19-12680

Date Filed: 03/31/2020

Page: 12 of 15

hearing, the special magistrate must take testimony from the code inspector and the
alleged violator, and formal rules of evidence do not apply. Id. § 162.07(3). The
special magistrate must issue findings of fact, conclusions of law, and an order
affording the proper relief. Id. § 162.07(4).
Upon notification by the code inspector that a previous order has not been
complied with, the special magistrate can assess fines up to $250 per day that the
violation continues. Id. § 162.09(1), (2)(a). A certified copy of the order filed
with the public records constitutes a lien upon the property involved, and the
county attorney may foreclose on the lien unless it involves real property that is a
homestead under the Florida Constitution. Id. § 162.09(3). An appeal of the final
administrative order may be taken within 30 days to the state circuit court, which
must be limited to appellate review of the record created before the special
magistrate. Id. § 162.11.
Manatee County adopted this code enforcement system as it pertains to
property maintenance and structural standards through local ordinance. Manatee
County Ordinance 15-10. The ordinance provides that all property in the county
must be maintained in a sanitary condition and the “storage of trash, rubbish, and
garbage is prohibited on any property.” Id. § 2-9-105(c). Further, the ordinance
provides that all structures must be structurally sound and all roofs must be sound
and not have defects that admit rain. Id. § 2-9-106(b)(3). We have recognized the
12

Case: 19-12680

Date Filed: 03/31/2020

Page: 13 of 15

authority under Florida law for special magistrates to adjudicate code violations
pursuant to Fla Stat. §§ 162.01-13. See Club Madonna, 924 F.3d at 1379.
Here, Lindbloom argues that (1) the Act is a bypass of due process and gives
unlimited power to the county with no appeal; (2) the code-enforcement scheme
transforms an administrative order into a court judgment in violation of separation
of powers principles; (3) that the County Ordinance targets old, poor citizens; and
(4) that the definition of “trash and debris” is vague. We note at the outset that
Lindbloom has inadequately developed his third argument, see Sapuppo, 739 F.3d
at 680-81, and that he has waived his fourth argument by not raising it before the
district court, see Access Now, 385 F.3d at 1331.
As to Lindbloom’s first two arguments, we conclude that they are without
merit. As a practical matter, the Act does allow for an appeal—that Lindbloom felt
that it was an inadequate avenue of appeal and opted against exercising does not
transform an otherwise-available appeal into an unavailable one.
With respect to his separation-of-powers argument, we find persuasive a
decision by Florida’s Fifth District Court of Appeal that rejected an identical
argument. The Fifth DC A reasoned that (1) the power given to the special
magistrate did not cross the line between “quasi-judicial” and “judicial”; (2) the
special magistrate cannot impose criminal penalties; (3) presentment of a defense
is permitted before enforcement of any lien; and (4) the statutory scheme provides
13

Case: 19-12680

Date Filed: 03/31/2020

Page: 14 of 15

for fundamental due process requirements, including notice and a hearing, creation
of a record, and an appeal. Michael D. Jones, P.A. v. Seminole Cty., 670 So.2d 95,
96 (Fla. 5th DCA 1996). While obviously not binding, we agree with the Jones
court that the Act does not violate separation of powers principles.
And in any event, Lindbloom has not persuasively demonstrated how the
boundaries of the branches of government have been encroached by the Act. See
Miller, 530 U.S. at 341. His freewheeling argument that the Act “bestows upon
the county” the power to “detain, arrest, and incarcerate citizens [] for code
violations,” and therefore violates separation of powers principles finds no support
in the law. It is true that the Act allows code enforcement boards to “[i]ssue orders
having the force of law to command whatever steps are necessary to bring a
violation into code compliance,” Fla. Stat. § 162.08(5), and that its enforcement
methods include “the issuance of a citation, a summons, or a notice to appear in
county court or arrest for violation of municipal ordinances,” id. § 162.22, these
powers are narrow, see Op. Atf y Gen. Fla. 2009-37, and the punishments are
minimal. Accordingly, we affirm the district court’s order in this regard.
III. CONCLUSION
For the foregoing reasons, we conclude that the district court properly
dismissed Lindbloom’s complaint with prejudice for failure to state a claim. The
arguments he raises on appeal are without merit. The district court’s order is
14

Case: 19-12680

Date Filed: 03/31/2020

AFFIRMED.

15

Page: 15 of 15

/

APPENDIX B

US District Court Order

Case 8:18-cv-02642-WFJ-AEP Document 30 Filed 06/17/19 Page 1 of 26 PagelD 230

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION
ROBERT KELVIN LINDBLOOM,
Plaintiff,
Case No. 8:18-cv-02642-T-02AEP

v.

MANATEE COUNTY, DONALD
COURTNEY, TANYA SHAW, TOM
WOOTEN, KATHARINE ZAMBONI,
Defendants.

ORDER
This action concerns a special magistrate’s enforcement hearing on local
code violations. The matter comes to the Court on a motion to dismiss Plaintiff
Robert Lindbloom’s Second Amended Complaint, Dkt. 26, from Defendants
Manatee County and Donald Courtney, Tanya Shaw, Tom Wooten, and Katharine
Zamboni in their individual capacities, Dkt. 27. Plaintiff, pro se, has responded in
opposition. Dkt. 29. The Court GRANTS the motion.

BACKGROUND
Taking Plaintiffs factual allegations as true, Plaintiff has lived in the same
home in Manatee County for more than 35 years. Dkt. 26 at 14. The individual
Defendants work for Manatee County: Defendant Shaw is a code enforcement

Case 8:18-cv-02642-WFJ-AEP Document 30 Filed 06/17/19 Page 2 of 26 PagelD 231

officer; Defendant Wooten is a code enforcement field supervisor; Defendant
Zamboni is an assistant county attorney; and Defendant Courtney is a special
magistrate. Id.
According to Shaw’s testimony at the eventual enforcement hearing, she
made initial inspections of Plaintiff s residence on July 17, 2018. Dkt. 26-3 at 20.
These inspections led to notices of violations (NOVs) for trash and debris (Section
2-9-105, case number 2018070212) and an unsound roof (Section 2-9-106, case
number 2018070184). Id. The NOVs were dated July 31, 2018 and posted on the
property the same day. Id. Reinspections were made on July 31, August 14 and 30,
and September 21 of 2018. Id. There was “drop service,” and the cases were posted
on the first floor of the county administration building. Id.
On September 26, 2018, Magistrate Courtney held a hearing on the NOVs in
which Shaw testified and presented photographic evidence of Plaintiff s
noncompliance. Dkt. 26-3 at 20-26. Plaintiff testified that the photographs did not
represent the then-current condition of his residence, objected to their “enhanced”
nature, and questioned the allegation that the condition of the roof was structurally
unsound. Id. at 21.
During the hearing, Plaintiff also asked for a connector cable with which to
make a computer presentation. Id. at 21. Plaintiff was informed that he would need
to provide a copy of any materials presented, so he would also need to use email or
2

Case 8:18-cv-02642-WFJ-AEP Document 30 Filed 06/17/19 Page 3 of 26 PagelD 232

a printer. Id. Plaintiff then made a request for a hearing aid but quickly turned to
his case “so we don’t have to come back here again.” Id. Though he once more
complained about the absence of a hearing aid, Plaintiff seemed able to
communicate with and answer questions from the Magistrate. Id. at 21-22.
During the hearing the Magistrate issued his decision finding noncompliance
and charging Plaintiff fines of $50.00 per day for each of the violations for a
maximum of $20,000. Id\ see also Dkt. 26 f 65. Defendant Courtney and other
individuals in attendance repeatedly informed Plaintiff that the fines would only
assess on the compliance date on October 19, 2018. Dkt. 26-3 at 21-22. The fines
started on November 17, 2018 and stopped on February 19, 2019. Dkt. 26

66-

67. A lien in the amount of $4,778.50 (apparently only for the trash and debris
violation) was entered upon the property. Dkt. 26-2. In his original complaint,
Plaintiff alleged that the Magistrate’s decision is “being appealed.” Dkt. 1 at 5.
In his Second Amended Complaint, Plaintiff broadly challenges the
constitutionality and validity of Chapter 162, Florida Statutes and Manatee County
Ordinance 15-10. Dkt. 26

14-15. He also brings eighteen claims against

Defendants, including claims in individual capacity. The causes of action include,
against Manatee County: (1) excessive fines, (2) a due process claim under 42

3

Case 8:18-cv-02642-WFJ-AEP Document 30 Filed 06/17/19 Page 4 of 26 PagelD 233

U.S.C. § 19831 for retroactive regulation, namely Ordinance 15-10 which required
homestead property owners to comply with its provisions; and (3) a due process
claim for entering a lien on a homestead property.
Plaintiff brings against Defendant Shaw: (4)-(9) a series of due process
claims for submitting false NOVs and altered photographs, not providing evidence
to Plaintiff prior to the hearing, and not specifying additional actions necessary to
bring the residence into conformity, a Fourth Amendment “privacy” claim, and a
First Amendment “free speech” claim.
Plaintiff complains against Magistrate Courtney: (10) an Americans with
Disabilities Act violation for failing to provide a hearing aid at the hearing; and a
series of due process claims for (11) mistakenly finding the noncompliance of
Plaintiffs roof; (12) not providing a connector cord to present evidence; (13)
relying on evidence not provided to Plaintiff prior to the hearing and for ignoring
testimony; (14) not allowing Plaintiff to question Shaw about the NOVs; (15)
allowing Shaw’s presentation with photographs; (16) failing to serve as an
impartial tribunal as evidenced by the comment, “Here’s the order in writing, sir,
so you maybe can’t hear but you can read this.”

1 Plaintiffs many due process claims are, in the alternative, brought under article I, section 9 of the
Florida Constitution, though he does not specify how the analysis may differ.
4

Case 8:18-cv-02642-WFJ-AEP Document 30 Filed 06/17/19 Page 5 of 26 PagelD 234

Plaintiff also brings (17) a due process claim against Defendant Wooten for
interrupting his questioning of Defendant Shaw. The last claim, (18), is against
Defendant Zamboni for not allowing Plaintiff to present evidence that he did not
provide prior to the hearing.
Plaintiff seeks a variety of relief, including injunctive relief to remove the
lien, a stay of the Magistrate’s decision, and punitive damages.2 Defendants move
to dismiss under Rule 10(b) of the Federal Rules of Civil Procedure for the
defective form of Plaintiff s Second Amended Complaint, under Rule 8(a)(2) for
lack of notice of the grounds supporting his claims, and under Rule 12(b)(6) for
failure to state a claim.
LEGAL STANDARD
To survive a Rule 12(b)(6) motion to dismiss, a plaintiff must plead
sufficient facts to state a claim that is “plausible on its face.” Ashcroft v. Iqbal, 556
U.S. 662, 678 (2009) (citation omitted). In considering the motion, the court
accepts all factual allegations of the complaint as true and construes them in the
light most favorable to the plaintiff. Pielage v. McConnell, 516 F.3d 1282, 1284
(11th Cir. 2008) (citation omitted).

2 Plaintiff also complains about injuries related to heart surgery weeks prior to the hearing. He alleges that
the hearing might have “contributed to the subsequent collapse of the graft requiring stents as well as
extremely painful drains that were placed in the pericardium.” Dkt. 26 195-96. It is unclear whether he
seeks damages related to these injuries. Any such claim would be unavailing. The matter is also irrelevant
to his procedural due process claim, especially because there is no indication that he sought a continuance
or that the condition affected presentment of his defense.

5

Case 8:18-cv-02642-WFJ-AEP Document 30 Filed 06/17/19 Page 6 of 26 PagelD 235

Courts should limit their “consideration to the well-pleaded factual
allegations, documents central to or referenced in the complaint, and matters
judicially noticed.” La Grasta v. First Union Sec., Inc., 358 F.3d 840, 845 (11th
Cir. 2004) (citations omitted). Courts may also consider documents attached to a
motion to dismiss if they are (1) central to the plaintiffs claim; and (2) undisputed
or, in other words, the “authenticity of the document is not challenged.” Horsley v.
Feldt, 304 F.3d 1125, 1134 (11th Cir. 2002) (citations omitted).
DISCUSSION
Rather than proceed one-by-one through Plaintiffs eighteen claims, the
Court first observes that Plaintiff fails to successfully challenge the
constitutionality and validity of Chapter 162, Florida Statutes and Ordinance 1510. Secondly, the procedures for the Magistrate’s hearing do not offend due
process and, in any event, Plaintiffs remedy lies in state court. Additionally,
Plaintiff does not raise a cognizable substantive due process or excessive fines
claim as it relates to the lien. He cannot establish his remaining claims for
violations of his First and Fourth Amendment rights, his privacy, and under the
Americans with Disabilities Act. Lastly, qualified immunity shields the individual
Defendants from suit.

6

Case 8:18-cv-02642-WFJ-AEP Document 30 Filed 06/17/19 Page 7 of 26 PagelD 236

I.

Chapter 162, Florida Statutes and Ordinance 15-10

More than once in his Complaint, Plaintiff asserts that Chapter 162, Florida
Statutes, and Ordinance 15-10 are unconstitutional. Dkt. 26 ffl|14-15, 29. His chief
argument is that Chapter 162 provided the legal basis for the County to pass
Ordinance 15-10, which “forc[es] citizens to abide by current regulations, no
matter how expensive the repairs are and/or how long they have lived in the same
house,” or in other words, is a “retroactive regulation.” Id.

7-9, 14.

Chapter 162 concerns county and municipal code enforcement, including
authorizing enforcement boards and special magistrates. See, e.g., Fla. Stat. §
162.03. As a Florida appellate court summarized, Chapter 162:
authorizes counties and municipalities to create a code
enforcement board to enforce local codes and ordinances which
have no criminal penalties, where a pending or repeated
violation continues to exist. Section 162.02. Enforcement is
initiated by a code inspector who notifies the violator and gives
him a reasonable time to correct the violation, and if the
violation continues beyond the time specified for correction
the code inspector must notify the board and request a hearing.
Section 162.06. Under the procedures set forth in section
162.07, the board must issue findings of fact, conclusions of
law and an order affording the proper relief consistent with the
statute.
Section 162.09 authorizes the board, upon notification by
the code inspector that a previous order of the board has not
been complied with by the set time or, upon finding that the
same violation has been repeated by the same violator, to assess
fines up to $250/day for each day that a violation continues past
the date set for compliance. Once a certified copy of the order
imposing a fine is filed with the public records, it constitutes a
7

Case 8:18-cv-02642-WFJ-AEP Document 30 Filed 06/17/19 Page 8 of 26 PagelD 237

lien upon either the land involved or other property owned by
the violator, and within six months the board may authorize the
city attorney to foreclose on the lien except if it involves real
property which is a homestead under the Florida Constitution.
City of Gainesville Code Enf’tBd. v. Lewis, 536 So. 2d 1148, 1150 (Fla. 1st DCA
1988). In addition to setting forth various standards for the maintenance of
property and structures, Ordinance 15-10 provides for enforcement of code
violations “as provided in Chapter 162, Florida Statutes.” Manatee County, Fla.,
Ordinance 15-10, Sec. 2-37-8.
Chapter 162’s constitutionality has been addressed before. For example, in
Michael D. Jones, P.A. v. Seminole Cty., 670 So. 2d 95 (Fla. 5th DCA 1996), the
Florida appellate court rejected an argument that the chapter violated the Florida
Constitution by establishing a “rogue” judicial system. 670 So. 2d at 96. In
upholding the chapter, the court observed:
The powers given by the Legislature to code enforcement
boards by Chapter 162 do not appear to us as having crossed
the line between “quasi-judicial” and “judicial.” Such boards
may impose fines for code violations but they cannot impose
criminal penalties. Although boards can assert a lien against
real or personal property, presumably section 162.09 would be
interpreted to permit the presentment of defenses prior to
enforcement of any lien. Further, the statute provides for the
fundamental due process requirements of notice and a hearing,
making of a record, and appeal, although such an appeal is
not de novo.
Id. Additionally, the Eleventh Circuit has noted the authorization under Florida law
for special magistrates to adjudicate code violations. E.g., Bey v. City of Tampa
8

Case 8:18-cv-02642-WFJ-AEP Document 30 Filed 06/17/19 Page 9 of 26 PagelD 238

Code Enf’t, 607 F. App’x 892, 897 (11th Cir. 2015) (citing Fla. Const, art. VIII, §
2(b); Fla. Stat. § 166.021(1) & (4); Fla. Stat. §§ 162.01-162.13; City of Tampa
Code § 9-1).
Alternatively, Plaintiffs argument that the statute and ordinance provide for
“retroactive regulation” is unpersuasive. In support, he points to Winston Towers
200 Ass ’n, Inc. v. Saverio, 360 So. 2d 470 (Fla. 3d DCA 1978), a short opinion that
invalidated an amendment to a condominium by-law because it “was an attempt to
impose a retroactive regulation.” 360 So. 2d at 470-71.
There are a few problems with this. First, the court in Winston Towers did
not specify the authority which proscribed the retroactive regulation, so it is
unclear whether that authority would also implicate a statute or county ordinance.
Secondly, Plaintiff provides no cases for the proposition that new or amended code
provisions cannot apply to buildings that exist at the time of an ordinance’s
promulgation. This seems especially anomalous here because Ordinance 15-10
apparently became operative in 2015, yet the inspections and NOVs of Plaintiff s
residence were not until 2018. This could suggest the defective condition was not
present when Ordinance 15-10 took effect. In fact, Plaintiff does not concretely
allege that the condition of his residence would have complied with code as
unamended by the ordinance.

9

Case 8:18-cv-02642-WFJ-AEP Document 30 Filed 06/17/19 Page 10 of 26 PagelD 239

Plaintiff has not set forth a claim that is plausible on its face to challenge the
constitutionality of Chapter 162, Florida Statutes or Ordinance 15-10.
II.

Procedural Due Process

Most of Plaintiff s claims are for procedural due process violations under §
1983, which requires him to prove (1) a deprivation of a constitutionally-protected
liberty or property interest, (2) state action, and (3) constitutionally-inadequate
process. Grayden v. Rhodes, 345 F.3d 1225, 1232 (11th Cir. 2003) (citation
omitted). Yet as Defendants point out, “only when the state refuses to provide a
process sufficient to remedy the procedural deprivation does a constitutional
violation actionable under section 1983 arise.” Cotton v. Jackson, 216 F.3d 1328,
1330-31 (11th Cir. 2000) (citations omitted). “It is the state’s failure to provide
adequate procedures to remedy the otherwise procedurally flawed deprivation of a
protected interest that gives rise to a federal procedural due process claim.” Id. at
1331 (citations omitted). This rule provides the State an “opportunity to remedy the
procedural failings of its subdivisions and agencies in the appropriate fora—
agencies, review boards, and state courts before being subjected to a claim alleging
a procedural due process violation.” Id. (citations and internal quotation marks
omitted).
The Court must “look to whether the available state procedures were
adequate to correct the alleged procedural deficiencies.” Id. (citations omitted). “If
10

Case 8:18-cv-02642-WFJ-AEP Document 30 Filed 06/17/19 Page 11 of 26 PagelD 240

adequate state remedies were available but the plaintiff failed to take advantage of
them, the plaintiff cannot rely on that failure to claim that the state deprived him of
procedural due process.” Id. (citations omitted). To be “adequate,” the state
remedial procedure “need not provide all the relief available under section 1983”;
rather, it “must be able to correct whatever deficiencies exist and to provide
plaintiff with whatever process is due.” Id. (citations omitted).
Here, the Magistrate’s order was appealable under section 162.11, Florida
Statutes. See also Fla. Stat. § 26.012(1) (“Circuit courts shall have jurisdiction of
appeals from final administrative orders of local government code enforcement
boards.”). Though Plaintiff admitted the order was “being appealed,” the
disposition of any appeal is unclear. In any event, Plaintiff does not clearly allege
in what ways such an appeal would be inadequate to remedy his claimed
procedural due process violations. Though Plaintiff would not be afforded a de
novo hearing, he could nonetheless obtain “appellate review of the record created
before the enforcement board.” Fla. Stat. § 162.11. Based on that review, the
circuit court could address the lien and the Magistrate’s decision, which is relief
Plaintiff seeks here.3

3 To the extent that Plaintiff could not challenge the constitutionality of Chapter 162 or Ordinance 15-10
in an administrative hearing or on appeal, see, e.g., Wilson v. Cty. of Orange, 881 So. 2d 625, 631 (Fla.
5th DCA 2004), the Court nonetheless considered these claims above.
11

Case 8:18-cv-02642-WFJ-AEP Document 30 Filed 06/17/19 Page 12 of 26 PagelD 241

Though the Court need not address Plaintiffs underlying claim, it does note
its skepticism. To be sure, due process “requires notice and the opportunity to be
heard incident to the deprivation of life, liberty or property at the hands of the
government,” and, generally, “requisite notice and opportunity for a hearing at a
meaningful time and in a meaningful manner.” Grayden, 345 F.3d at 1232
(citations and internal quotation marks omitted). To determine due process
requirements in a particular situation, courts generally apply the three-factor
Mathews4 test to assess:
First, the private interest that will be affected by the official
action; second, the risk of an erroneous deprivation of such
interest through the procedures used, and the probable value, if
any, of additional or substitute procedural safeguards; and
finally, the Government’s interest, including the function
involved and the fiscal and administrative burdens that the
additional or substitute procedural requirement would entail.
Id. at 1232-33.
Other courts, in applying the Mathews test to Chapter 162 enforcement
proceedings, have found procedural due process violations where a magistrate
relied solely upon an officer’s affidavit and the aggrieved party was not given an
opportunity to protest or contest the factual findings. E.g., Massey v. Charlotte
Cty., 842 So. 2d 142, 145-47 (Fla. 2d DCA 2003); MichaelD. Jones, P.A., 670 So.
2d at 96 (“Although [code enforcement] boards can assert a lien against real or

4 Mathews v. Eldridge, 424 U.S. 319 (1976).
12

Case 8:18-cv-02642-WFJ-AEP Document 30 Filed 06/17/19 Page 13 of 26 Page ID 242

personal property, presumably section 162.09 would be interpreted to permit the
presentment of defenses prior to enforcement of any lien.”). The Massey court
noted the importance of an opportunity to present a defense because the findings
there involved “moderately complex issues, including whether the alleged
violation continued, how long it continued, and whether there was any reason to
reduce the per diem fine imposed in light of attempts by the [aggrieved party] to
comply.” Id. at 147.
The Court agrees that Plaintiff has an interest against accrued fines—which
can constitute a lien on property—but a close look at the hearing transcript reveals
that Plaintiff was afforded an opportunity to be heard. Indeed, he was duly noticed
of the hearing and was allowed to present after Defendant Shaw testified. See Fla.
Stat. § 162.07(3) (“The enforcement board shall take testimony from the code
inspector and alleged violator. Formal rules of evidence shall not apply, but
fundamental due process shall be observed and shall govern the proceedings.”).
Plaintiff requested a VGA cable for his computer but did not raise the issue
again after he was informed he would need to provide a copy of any presented
evidence. And though Plaintiff requested a hearing aid, he decided to “just try ...
so we don’t have to come back here again.” The record shows he was able to
respond to questions from the Magistrate, and officials obliged him whenever he
asked for confirmation of what other individuals had said. It was Plaintiff s choice
13

Case 8:18-cv-02642-WFJ-AEP Document 30 Filed 06/17/19 Page 14 of 26 PagelD 243

to proceed, and there is no indication he made any prior request or notice for
hearing assistance.
As for his defense, Plaintiff argued that Defendant Shaw “accused me of
having beer cans in my yard. I don’t drink beer at all.” Plaintiff later clarified that
the cans were Pepsi cans without explaining why this distinction affected
compliance with the code. When asked about black plastic over the roof, Plaintiff
responded, “The black plastic is — it’s protecting the structure that’s there now. It
doesn’t have any — it does not have any — a permanent over-structure. But that —
that is not structure. Structure is what’s underneath.” Dkt. 26-3 at 21-22. The
Magistrate took this as an admission that there was no proper roof. There was also
a dispute about the currency of the photographs presented by Shaw, but the
Magistrate assured Plaintiff that “Ms. Shaw will go out there, or somebody else
will go out there, and you can show them around your property, and if everything
is great, it goes away.”5 Id. at 22.

5 Plaintiff complains that “[w]hen the fine ends, how much the fine is, when the property is compliant, are
determined sometime after the hearing, by a person who is NOT a magistrate.” Dkt. 29 at 8. But it is
worth noting that the fines eventually assessed were significantly less than as allowed by the Magistrate’s
order—and did not begin for nearly a month after the set compliance date. Plaintiffs suggestion that he is
entitled to a special magistrate hearing each day the fines accumulate is untenable and unnecessary under
both section 162.09, Florida Statutes and due process. In any event, as section 162.11 makes clear, it is
the enforcement board or special magistrate’s order that is appealed, not the ultimate assessment of the
fines. Also unpersuasive is Plaintiffs argument that Defendant Shaw imposed additional requirements for
compliance not addressed at the hearing. The Magistrate’s order required Plaintiff to clear all trash or
debris from his property. Dkt. 26-2 at 8.

14

Case 8:18-cv-02642-WFJ-AEP Document 30 Filed 06/17/19 Page 15 of 26 PagelD 244

Lastly, the Magistrate’s comment about Plaintiffs hearing does not
constitute a procedural due process violation. Though due process does afford the
right to an impartial tribunal, see Dirt, Inc. v. Mobile Cty. Comm ’n, 739 F.2d 1562,
1566 (11th Cir. 1984), the arguably insensitive comment came at the end of the
hearing after the Magistrate had entered his findings. The comment does not rise to
such a level that it singlehandedly impugns the impartiality of the hearing, and
there are no other facts that support discrimination against Plaintiff on the basis of
a hearing disability.
In sum, while the hearing appears to have been brief, the issues were simple
and Plaintiff was nonetheless allowed to speak and present evidence on his behalf.
See City of Fort Lauderdale v. Scott, 551 F. App’x 972, 975 (11th Cir. 2014)
(“Here, before any lien attached, the City issued a Notice of Violation to
the property owner that specified the purported violation and set a time and place
for a hearing before a special master. A hearing, had it been requested, would have
afforded the property owner a right to be heard in full—to contest the violation.
And judicial review would have been available. This is a paradigm of due
process.”). In any event, the proper avenue for redress of his many claims is the
State appeal process as contemplated by Chapter 162.

15

Case 8:18-cv-02642-WFJ-AEP Document 30 Filed 06/17/19 Page 16 of 26 PagelD 245

III.

Substantive Due Process & Excessive Fines

Plaintiff also raises a substantive due process and an excessive fines claim
related to the lien on his property. Due process “protects individuals against
arbitrary exercises of government power.” T. W. ex rel. Wilson v. Sch. Bd. of
Seminole Cty., 610 F.3d 588, 598 (11th Cir. 2010). To make out a substantive due
process claim, Plaintiff must show he was deprived of a constitutionally protected
interest through “an abuse of government power.” Greenbriar, Ltd. v. City of
Alabaster, 881 F.2d 1570, 1577 (11th Cir. 1989) (citation omitted). Because “only
the most egregious official conduct can be said to be ‘arbitrary in the constitutional
sense,’” the government’s actions must “shock[] the conscience.” Cty of
Sacramento v. Lewis, 523 U.S. 833, 846 (1998) (citation omitted).
“[T]here is generally no substantive due process protection for state-created
property rights.” Kentner v. City ofSanibel, 750 F.3d 1274, 1279-80 (11th Cir.
2014). There is an exception where such rights are infringed by a “legislative” as
opposed to an “executive” act. Id. (citations omitted). Executive acts “typically
arise from the ministerial or administrative activities of the executive branch and
characteristically apply to a limited number of people, often to only one,” while
legislative acts “generally apply to a larger segment of—if not all of—society.” Id.
(citations omitted); see also Eisenberg v. City ofMiami Beach, 54 F. Supp. 3d

16

Case 8:18-cv-02642-WFJ-AEP Document 30 Filed 06/17/19 Page 17 of 26 PagelD 246

1312, 1327 (S.D. Fla. 2014) (citing DeKalb Stone, Inc. v. County of DeKalb,
Ga., 106 F.3d 956, 960 (11th Cir. 1997).
The plaintiffs in Eisenberg, for example, challenged a city’s enforcement as
applied to an apartment hotel, including “eligibility for a discretionary exemption
to the Fire Code given [the hotel’s] historic status.” Id. at 1327. The court held that
because the decision was specific to the plaintiffs and did not affect the general
population—and was therefore non-legislative—the substantive due process claim
failed. Id.
Here, the decision to enforce the code provisions against Plaintiff was
clearly specific to Plaintiff and did not affect the general population. Plaintiff
cannot circumvent this fact by alleging that Ordinance 15-10 retroactively applies
to all members of the public whose property existed at the time the ordinance took
effect. See, e.g., Dkt. 26

13, 16. Additionally, Plaintiff can point to no abuse of

government power or any action by the County that “shocks the conscience.”
Turning to the statutory language, section 162.09, Florida Statutes provides:
(1) An enforcement board, upon notification by the code
inspector that an order of the enforcement board has not been
complied with by the set time ... may order the violator to pay
a fine in an amount specified in this section for each day the
violation continues past the date set by the enforcement board
for compliance[.]
(3) A certified copy of an order imposing a fine . . . may be
recorded in the public records and thereafter shall constitute a
lien against the land on which the violation exists and upon any
17

Case 8:18-cv-02642-WFJ-AEP Document 30 Filed 06/17/19 Page 18 of 26 PagelD 247

other real or personal property owned by the violator. Upon
petition to the circuit court, such order shall be enforceable in
the same manner as a court judgment by the sheriffs of this
state.... No lien created pursuant to the provisions of this part
may be foreclosed on real property which is a homestead under
s. 4, Art. X of the State Constitution. The money judgment
provisions of this section shall not apply to real property or
personal property which is covered under s. 4(a), Art. X of the
State Constitution.
Meanwhile, article X, section 4 of the Florida Constitution states that homestead
properties are “exempt from forced sale under process of any court, and no
judgment, decree or execution shall be a lien thereon, except for the payment of
taxes and assessments thereon.”
According to Plaintiff, “[wjhile there are many [court] opinions about the
Florida Constitution’s authorizing the recording of a ‘super-lien’ that is based on
an order, not a judgment^ t]here have been no opinions about the last sentence in
162.09(3).” Dkt. 26 Iff 20-21 (citation omitted). But the Court finds that such an
issue is unnecessary to resolve the case. Indeed, courts have refused to invalidate
liens on homestead properties, notwithstanding the Florida Constitution. As one
state appellate court reasoned:
[T]he instant lien was created pursuant to a code enforcement
board order rather than pursuant to a “judgment, decree or
execution” which are prohibited by the constitution. More
importantly,... the prohibition of the constitutional provision
is a prohibition against the use of process to force sale of
homestead property and does not invalidate the debt or lien.
Thus, the constitutional prohibition takes priority over the debt
or lien and renders the same unenforceable. The legislature
18

Case 8:18-cv-02642-WFJ-AEP Document 30 Filed 06/17/19 Page 19 of 26 PagelD 248

recognized this fact in determining that an enforcement board
order should not be considered a judgment except for
enforcement proceedings. Accordingly, the mere recording of
the order in the instant case does not constitute a cloud upon
[the owner’s] homestead property. However, if [the] property
somehow lost its homestead status, the City would be able to
enforce the order as a lien against the property.
Accordingly, the trial court correctly determined that the
Florida Constitution did not invalidate the lien created in the
instant case but merely rendered the same unenforceable. As
such, the summary judgment granted in favor of the City is
affirmed.
Miskin v. City ofFort Lauderdale, 661 So. 2d 415, 416 (Fla. 4th DCA 1995)
(citations omitted); see also Demura v. Cty. of Volusia, 618 So. 2d 754, 756-57
(Fla. 5th DCA 1993) (“It is arguable that the action which the [property owner]
should have filed (assuming, arguendo, that any action at all was necessary) was a
declaratory judgment action seeking a determination that the property at issue is, in
fact, homestead property at this time.”).
Nor does Plaintiff state a plausible excessive fines claim. The Eleventh
Circuit has upheld much greater fines under both the U.S. and Florida
Constitutions. E.g., Moustakis v. City ofFort Lauderdale, 338 F. App’x 820 (11th
Cir. 2009). The fine in Moustakis, for example, was $150 per day to total
$700,000. Id. at 821. The court first observed that “[t]here is a strong presumption
that the amount of a fine is not unconstitutionally excessive if it lies within the
range of fines prescribed by the legislature.” Id. at 821 (citations omitted). After
19

Case 8:18-cv-02642-WFJ-AEP Document 30 Filed 06/17/19 Page 20 of 26 PagelD 249

noting that Chapter 162 did not impose a cap on the fines, the court found that the
fine “was created by the [owners’] failure to bring the house into compliance with
the Code each day for 14 years. Rather than being grossly disproportionate to the
offense, the $700,000 fine is, literally, directly proportionate to the offense.” Id. at
822.

The same is true here. A fine of $50 per day to total less than $5,000—which
is within the bounds set by the legislature—is not excessive.
IV.

Remaining Claims

Plaintiffs remaining claims do not survive the motion to dismiss stage. For
the First Amendment claim, Plaintiff alleges that Defendant Shaw misidentified
Pepsi cans in his yard as beer cans. Dkt. 26 f 121. He told her in an email that the
cans “were to be used to construct an informational outdoor display.” Id. f 123. He
removed the cans because of the NOV and the threat of fines. Id. If 124.
First of all, Plaintiff provides no support for the proposition that
misidentifying trash on a yard constitutes a First Amendment violation. This is true
even if Defendant Shaw knew there were no beer cans on the yard. Secondly,
Plaintiff cites no case finding that storing trash—or, as claimed by Plaintiff,
materials for a future project—on one’s yard is a constitutionally protected
activity. Plaintiff further provides no details about the nature of the “informational

20

Case 8:18-cv-02642-WFJ-AEP Document 30 Filed 06/17/19 Page 21 of 26 PagelD 250

outdoor display,” including any concrete plans for its construction.6 Cf. First
Vagabonds Church of God v. City of Orlando, Fla., 638 F.3d 756, 763 (11th Cir.
2011) (en banc) (upholding neutral ordinance that promotes substantial
government interest notwithstanding incidental effect on speech).
The constitutional and tort privacy claims similarly fall. The argument is
again that the mis identification of the Pepsi cans in the NOV invaded Plaintiffs
privacy because a “yard full of beer cans presents a more negative mental picture,
than does a yard full of Pepsi cans.” Dkt. 26

117. But Plaintiff does not cite any

authority that an NOV that misidentifies trash on a yard—even if knowinglyviolates the Fourth Amendment or an individual’s privacy interests. There was
simply no intrusion as understood by the Fourth Amendment or article 1, section
23 of the Florida Constitution.
As for tort, Florida courts recognize three strains of invasion of privacy
claims: “(1) appropriation—the unauthorized use of a person’s name or likeness to
obtain some benefit; (2) intrusion—physically or electronically intruding into one’s
private quarters; [and] (3) public disclosure of private facts—the dissemination of
truthful private information which a reasonable person would find objectionable.”
Oppenheim v. I.C. Sys., Inc., 695 F. Supp. 2d 1303, 1308 (M.D. Fla.), aff’d, 627
6 It is worth noting that there is nothing inherent in the NOV or compliance order that would prohibit
Plaintiff from erecting the “informational display” on his yard once it is completed. Yet the question of
whether any such display would violate the county’s code—and whether Plaintiff would thereafter have a
First Amendment claim—is not before the Court.

21

Case 8:18-cv-02642-WFJ-AEP Document 30 Filed 06/17/19 Page 22 of 26 PagelD 251

F.3d 833 (11th Cir. 2010) (quoting Allstate Ins. Co. v. Ginsberg, 863 So. 2d 156,
162 (Fla. 2003). Plaintiff is unable to establish any of the above.
Plaintiffs allegations sound in defamation, yet such a claim is also
unavailable. The cause of action requires that: (1) the defendant published a false
statement, (2) about the plaintiff, (3) to a third party, and (4) the falsity of the
statement caused injury to the plaintiff. In re Nofziger, 361 B.R. 236, 245 (Bankr.
M.D. Fla. 2006) (citations omitted). Malice is also an essential element. Id.
(citation omitted). “Actual malice is established by showing that the publication
was made with knowledge that it was false or with reckless disregard of whether it
was false or not,” though no showing is required where the statement is considered
actionable per se. Id. (citations omitted). A “communication is actionable per se—that is, without a showing of special damage—if it imputes to another ... a
criminal offense amounting to a felony ... or conduct, characteristics or a
condition incompatible with the proper exercise of his lawful business, trade,
profession or office[.]” Id. (citation omitted).
Apart from conclusory language, Plaintiff does not set forth specific
allegations that the falsity of Defendant Shaw’s statement caused him injury.
Indeed, the statement contested here is not that Plaintiff had cans in his yard—only
that they were beer cans. Similarly, Plaintiff does not dispute that the cans, or any
other trash, would have been observable to any member of the public. Furthermore,
22

Case 8:18-cv-02642-WFJ-AEP Document 30 Filed 06/17/19 Page 23 of 26 PagelD 252

again excluding conclusory language, there are no allegations supporting the claim
that Defendant Shaw knew the cans were not beer cans when she made the
statement. Lastly, though the Court need not resolve the point, an absolute
privilege attaches to statements made by public officials so long as publication is
made “in connection with the performance of the duties and responsibilities” of
their office. Stewart v. Sun Sentinel Co., 695 So. 2d 360, 362 (Fla. 4th DCA 1997).
The last of Plaintiff s remaining claims is under the Americans with
Disabilities Act for the Magistrate’s alleged refusal to provide Plaintiff with a
hearing aid during the enforcement hearing. Under Title II of the ADA, “no
qualified individual with a disability shall, by reason of such disability, be
excluded from participation in or be denied the benefits of the services, programs,
or activities of a public entity, or be subjected to discrimination by any such
entity.” 42 U.S.C. § 12132. Plaintiff must establish: (1) that he is a qualified
individual with a disability; (2) that he was either excluded from participation in or
denied the benefits of a public entity’s services, programs, or activities, or was
otherwise discriminated against by the public entity; and (3) that the exclusion,
denial of benefit, or discrimination was by reason of Plaintiff s disability. Bircoll v.
Miami-Dade Cty., 480 F.3d 1072, 1083 (11th Cir. 2007).
This claim has numerous defects. First of all, the allegations do not make
clear that Plaintiff is a qualified individual. Nor is there any indication that Plaintiff
23

Case 8:18-cv-02642-WFJ-AEP Document 30 Filed 06/17/19 Page 24 of 26 PagelD 253

requested an accommodation in advance of the hearing. Additionally, the transcript
reveals Plaintiff was not excluded from participation in the hearing; rather, he
elected to proceed “so we don’t have to come back here again.” He was, moreover,
able to communicate with the Magistrate and present evidence on his behalf. Even
more fundamentally, Title II does not require public entities to provide disabled
individuals with individually prescribed devices, such as hearing aids. 28 C.F.R. §
35.135; see also Butts v. Georgia State Patrol Div., No. 4:1 l-CV-60 CDL, 2011
WL 5597258, at *6 (M.D. Ga. Nov. 17, 2011) (denying Title II claim for failure to
provide a hearing aid).
V.

Qualified Immunity

In response to Plaintiffs various § 1983 claims, the individual Defendants
also invoke qualified immunity, which protects government officials “from
liability for civil damages insofar as their conduct does not violate clearly
established statutory or constitutional rights of which a reasonable person would
have known.” Pearson v. Callahan, 555 U.S. 223, 231 (2009) (citation omitted).
Qualified immunity allows government officials to “carry out their discretionary
duties without the fear of personal liability or harassing litigation.” Oliver v.
Fiorino, 586 F.3d 898, 904 (11th Cir. 2009) (citation omitted). The Eleventh
Circuit teaches that qualified immunity should be addressed “as early in the lawsuit

24

Case 8:18-cv-02642-WFJ-AEP Document 30 Filed 06/17/19 Page 25 of 26 PagelD 254

as possible” because it is a defense not only from liability, but from suit. Lee v.
Ferraro, 284 F.3d 1188, 1194 (11th Cir. 2002) (citation omitted).
A government official “asserting this defense bears the initial burden of
showing that he was acting within his discretionary authority.” Moore v. Sheriff of
Seminole Cty., No. 17-14779, 2018 WL 4182120, at *2 (11th Cir. Aug. 30, 2018)
(citation and quotation marks omitted). Then, to overcome the qualified immunity,
Plaintiff has the burden to show that (1) the official’s conduct violated a
constitutional right, and (2) the right was clearly established at the time of the
official’s alleged misconduct. Saucier v. Katz, 533 U.S. 194, 201 (2001); see also
Pearson, 555 U.S. at 236 (courts free to address inquiry in most appropriate order).
A constitutional violation can be clearly established by showing (1) a
“materially similar case”; (2) pointing to a “broader clearly established principle”
that controls “the novel facts of the situation”; (3) or demonstrating that the
conduct involved in the case “so obviously violates ‘the constitution that prior case
law is unnecessary.” Terrell v. Smith, 668 F.3d 1244, 1255-56 (11th Cir. 2012)
(citations and alterations omitted). As evidenced by the above analysis, Plaintiff
has failed to demonstrate a violation of a clearly established right. Qualified
immunity thus shields Defendants from suit in their individual capacity.

25

Case 8:18-cv-02642-WFJ-AEP Document 30 Filed 06/17/19 Page 26 of 26 PagelD 255

CONCLUSION
The Court GRANTS Defendants’ Motion to Dismiss. Dkt. 27. This is
Plaintiffs third complaint, and a fourth attempt would be futile. As such, the Court
dismisses with prejudice Plaintiffs Second Amended Complaint. Dkt. 26. The
Clerk is directed to terminate all pending motions and close the case.
DONE AND ORDERED at Tampa, Florida, on June 17, 2019.

/s/ William F. Juris
WILLIAM F. JUNG
UNITED STATES DISTRICT JUDGE

COPIES FURNISHED TO:
Counsel of Record
Pro se parties

26

Additional material
from this filing is
available in the
Clerk's Office.

